Nos. 19-251 & 19-255

In The Supreme Court of The United States
AMERICANS FOR PROSPERITY FOUNDATION
V.

Petitioner,

MATTHEW RODRIQUEZ ACTING ATTORNEY GENERAL
FOR THE STATE OF CALIFORNIA,
Respondent.

THOMAS MORE LAW CENTER
V.

Petitioner,

MATTHEW RODRIQUEZ ACTING ATTORNEY GENERAL
FOR THE STATE OF CALIFORNIA
Respondent.

CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 5,060 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on April 5, 2021.
Denise Dulong
GibsonMoore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
denise@gibsonmoore.net
For:
Erin Bernstein
Darin Sands
Counsel of Record
Abigail Burman
Bradley Bernstein Sands LLP
3911 Harrison St., Suite 100
Oakland, CA 94611
dsands@bradleybernsteinllp.com
Counsel for Amici Curiae

David Freeman Engstrom
Professor of Law
Bernard D. Bergreen Faculty
Scholar, and Associate Dean
Stanford Law School
559 Nathan Abbott Way
Stanford, CA 94305-8610
Counsel for Amici Curiae

